Before the Committee on Transportation and Infrastructure
United States House of Representatives


For Release on Delivery
Expected at               Actions Taken and
                          Needed To Improve
10:30 a.m. EDT
Thursday
April 22, 2010
CC-2010-044
                          Management and
                          Oversight of PHMSA’s
                          Hazardous Materials
                          Special Permits and
                          Approvals Program

                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman, Ranking Member Mica, and Members of the Committee:

We appreciate the opportunity to testify on the Pipeline and Hazardous Materials
Safety Administration’s (PHMSA) management and oversight of the Special Permits
and Approvals Program. PHMSA regulates up to 1 million daily movements of
hazardous materials, many of which are transported under special permits and
approvals that allow relief from the Hazardous Materials Regulations under certain
conditions. 1 We have evaluated this program over the past 2 years and identified
shortcomings in how PHMSA authorizes and oversees special permits and approvals.
My testimony today is based on our body of work and will focus on three key areas:
(1) the status of PHMSA’s action plans to address our concerns, (2) PHMSA’s
execution of its new safety measures, and (3) emerging safety issues requiring
management attention.

IN SUMMARY
Regulating and monitoring the movement of hazardous materials is a critical part of
ensuring the safety of the Nation’s transportation system, and it is PHMSA’s role to
properly assess risks before allowing applicants to transport hazardous materials
under special permits and approvals. PHMSA has established action plans to address
safety concerns we have identified, but success will be measured through effective
execution. In addition, PHMSA must fully assess and address emerging issues that
raise questions about fundamental operating procedures needed to promote safety.
For example, our recent work shows that PHMSA personnel are not consistently
following newly established procedures for granting special permits and approvals or
adequately overseeing explosive classification approvals. As PHMSA continues to
address these areas, it must refocus its approach to proactively identify safety risks,
work with partner safety agencies to resolve safety and coordination matters, and set
targeted oversight priorities.

BACKGROUND
PHMSA is the lead agency responsible for regulating the safe transport of hazardous
materials, including explosive, poisonous, corrosive, flammable, and radioactive
substances. The Federal Aviation Administration (FAA), the Federal Motor Carrier
Safety Administration (FMCSA), and the Federal Railroad Administration (FRA) also
oversee and enforce regulations for their respective industries.

Currently, there are about 5,500 special permit holders and 118,000 approvals. 2
Special permits and approvals allow a company or individual to transport, package, or
1
    Special permits authorize a holder to vary from specific provisions of the Hazardous Materials Regulations; identify the
    section(s) from which relief is provided; and include provisions, conditions, and terms that must be followed in order for
    the special permit to be valid. An approval means written consent from PHMSA’s Associate Administrator to perform a
    function that requires prior consent under the Hazardous Materials Regulations.
2
    There are now about 1,250 active special permits. The 5,500 referenced above include these plus all party-to permits.


                                                                                                                            1
ship hazardous materials in a manner that varies from the regulations, provided the
company or individual is (1) fit to conduct the activity authorized by the special
permit or approval and (2) proposing a level of safety as safe as or safer than
requirements from which the applicant seeks relief.

Our work has consistently shown that strong oversight of these authorizations is
needed. Last month, we issued our report on PHMSA’s management of the Special
Permits and Approvals Program after testifying on our findings before this Committee
in September 2009. 3 Our review disclosed serious deficiencies in how PHMSA
processes and oversees special permits and approvals. Most recently, on
April 7, 2010, we issued a management advisory to PHMSA detailing concerns with
how it authorizes explosive classification approvals and oversees labs authorized to
test explosives.

WHILE PHMSA’S ACTION PLANS SHOW PROMISE, IT WILL TAKE
TIME, RESOURCES, AND SUSTAINED COMMITMENT TO ADDRESS
LONGSTANDING SAFETY ISSUES
We recently reported fundamental weaknesses with how PHMSA authorizes and
oversees special permits and approvals. Specifically, PHMSA granted permits and
approvals without full knowledge of applicants’ safety histories and without
coordinating with other Operating Administrations when needed. In response to our
work, the Office of the Secretary and PHMSA took swift action to formulate two
action plans to better manage the Special Permits and Approvals Program. PHMSA’s
plans show promise, but it will take sustained management commitment to fully
address longstanding and emerging issues.

Weaknesses Identified in PHMSA’s Special Permits and Approvals
Process
In March 2010, we reported that PHMSA’s reviews of all 99 permits and
56 approvals we examined did not consider applicants’ incident or regulatory
compliance histories. 4 We found this to be the case even when applicants had
multiple incidents and enforcement violations for years prior to receiving their permit.
For example, PHMSA granted a special permit to a company to operate bulk




3
    OIG Report Number AV-2010-045, “New Approaches Needed in Managing PHMSA’s Special Permits and Approvals
    Program,” March 4, 2010. OIG Testimony Number CC-2009-096, “PHMSA’s Process for Granting Special Permits and
    Approvals for Transporting Hazardous Materials Raises Safety Concerns,” September 10, 2009. OIG reports and
    testimonies are available on our website: www.oig.dot.gov.
4
    The Hazardous Materials Regulations [49 C.F.R. § 107.113f (5) (2010)] provide PHMSA with the authority to examine
    applicant fitness and compliance histories.


                                                                                                                   2
explosives 5 vehicles—even though the company had 53 prior incidents, 9 of which
were serious vehicle rollovers.

Of particular concern is PHMSA’s practice of granting special permits to trade
associations—effectively giving a “blanket authorization” to thousands of member
companies without any assessment of their safety histories or need for the permit.
PHMSA also did not conduct regular compliance reviews of individuals and
companies who had been granted special permits and approvals. Our visits to
27 companies found that more than half did not comply with the terms of their
permits. Some officials did not know which permits applied to their location, and
some were unaware that they even had a permit to abide by. Yet, PHMSA’s risk-
based oversight program does not consider whether a company holds a special permit
or approval as a factor to drive compliance reviews.

PHMSA’s lack of coordination with FAA, FMCSA, and FRA exacerbates these
weaknesses. These agencies may have critical safety data on applicants seeking a
permit. Yet, we found PHMSA did not coordinate 90 percent of the special permits
we reviewed. PHMSA also did not coordinate most of the emergency permits we
reviewed—even though the Hazardous Materials Regulations specifically require
their coordination.

PHMSA Has Completed Several Action Plan Items, but Full Execution
Remains To Be Seen
PHMSA has developed action plans for both the special permit and approval
processes in response to our findings       PHMSA’s Completed Action Plan Items for
and has completed several items to date.           Special Permits and Approvals
As shown at right, a number of these  Developing and publishing written policy to
were included in both action plans, as    clarify that special permits and approvals are
we found the two processes shared         issued to member companies only, not to the
                                          association or organization.
many of the same weaknesses (e.g.,
granting special permits and approvals  Revising    policy and procedures to ensure that
                                          an “equivalent level of safety” determination is
without       documenting     applicants’ met and fully supported with safety
proposed level of safety or considering   documentation evaluations.
their prior safety incidents and  Revising policy and procedures to ensure that
regulatory violations). Exhibits A and    applicant fitness determinations are well-
                                          founded and fully supported.
B list all action plan items.
                                                                  Establishing formal standard operating policies
                                                                   and procedures for the Special Permits and
In addition, PHMSA has developed                                   Approvals Program and providing training to
action items specific to each program.                             program employees on the new procedures.


5
    This permit holder is authorized to transport certain explosives, oxidizers, corrosive and combustible liquids, and blasting
    caps on the same truck. We first advised PHMSA of this company’s safety record in July 2009, and PHMSA has since
    taken action to address it. In February 2010, PHMSA issued a notice of intent to terminate the company’s special
    permits.


                                                                                                                              3
For special permits, these include more compliance audits of permit holders and a
plan to modernize the information technology system that supports the program. For
approvals, these include developing a policy for publishing them in the Federal
Register to allow for greater transparency. Currently, only special permits are
required to be published.

However, at least two action items remain outstanding for both special permits and
approvals, and full implementation is not likely to occur for several years:

    • PHMSA has an open timeframe for addressing special permits and approvals
      issued to trade associations. We recommended in March 2010 that PHMSA
      require companies to apply under its new policy, which would include an
      evaluation of fitness and level of safety. PHMSA states that this process depends
      on the number of companies that elect to apply and available resources.

    • PHMSA estimates it will take 5 years and $25 million to improve its hazardous
      materials safety data collection and analysis. This system is part of PHMSA’s
      plan to modernize its information technology and is an important step to develop a
      risk-based, data-driven oversight strategy. At this time, it is uncertain whether
      funding will be available, and PHMSA has not developed a funding contingency
      plan.

We are encouraged by PHMSA’s response to our concerns, and its action plans
represent progress toward its mission of safety. However, more work remains to
ensure they are executed as intended. We will continue to monitor PHMSA’s
progress and its means to measure effectiveness.

PHMSA’S NEWLY IMPROVED SAFETY PROCEDURES ARE NOT
BEING CONSISTENTLY FOLLOWED
PHMSA has taken commendable action to establish formal standard operating
policies and procedures for the Special Permits and Approvals Program. However,
our ongoing work shows that personnel are not consistently complying with
PHMSA’s new safety measures for reviewing and authorizing special permits and
approvals. We examined 20 new, renewed, and “party-to” special permits 6 and
22 new and renewed approvals issued since January 1, 2010, and found problems with
procedures for assessing applicants’ fitness and level of safety—both for individuals
and trade associations—and coordinating with other agencies.




6
    A party-to application applies only to special permits and is a request to “piggy-back” on a new or existing permit.


                                                                                                                           4
Special Permit and Approval Applicants’ Fitness and Level of Safety Are
Still Overlooked
We continue to find instances where PHMSA’s evaluations of applicants fall short in
verifying that the applicant is fit to carry out the terms and conditions of the special
permit or approval and will provide a level of safety that meets or exceeds what is
specified in the Hazardous Materials Regulations. Specifically, with regard to
applicant fitness, we found:

    • For 4 of the 20 special permits, applicant fitness determinations were not well-
      founded or fully supported. For example, in one renewal application the PHMSA
      transportation specialist (project officer) determined that the applicant was not fit
      based on an evaluation of the applicant’s safety history. However, the special
      permit was still renewed even though the fitness problems cited in the evaluation
      form were not addressed.

    • For 9 of the 22 approvals, applicant fitness determinations were similarly
      overlooked. For example, in one explosive classification approval request the
      transportation specialist determined the company was not fit based on FMCSA
      inspection data. The data showed that drivers were put out of service 22 percent
      of the time based on roadside inspections, which was more than three times the
      national average. 7 The company was still approved without explanation even
      though PHMSA’s new procedures require further investigation when company
      inspection data exceeds the national average.

In addition, we question the reliability of safety history information PHMSA used to
determine companies’ fitness in all 20 permit and 22 approval applications. Special
Permits and Approvals Program personnel rely on information from PHMSA’s
recently deployed Hazardous Intelligence Portal (HIP). 8 However, we compared
safety history information for companies we reviewed in 2008 to the HIP data and
found that the HIP contained fewer incidents and serious incidents. 9 For example, for
1 company in our 2008 review, safety history information disclosed 53 incidents,
12 of which were serious. Yet, the HIP only disclosed 15 incidents, 6 of which were
serious. We brought this discrepancy to PHMSA’s attention and suggested that it
perform a data quality check of the HIP.




7
    The out-of-service status reflects one or more out-of-service violations in a single inspection, such as the driver of the
    vehicle exceeded the hours of service rule.
8
    The Hazardous Intelligence Portal provides access to incidents/accidents, inspection, registration, permits and approvals,
    and other hazardous materials information about companies that interact with the U.S. Department of Transportation.
9
    We compared data in the HIP to data in PHMSA’s Hazardous Materials Incident Reports Database. This database is a
    search tool that contains 10 years of incident information on shippers and carriers of hazardous materials. Information is
    submitted by any individual or company involved in a hazardous materials incident.


                                                                                                                            5
With regard to applicants’ proposed level of safety, we found:

     • For all 20 special permits, PHMSA’s application evaluations did not fully support
       or document safety determinations. These were mostly renewal or party-to
       permits (one new), which were based on evaluations PHMSA did several years
       ago when assessing the original permit. We cited this concern before this
       Committee in September 2009. Yet, it does not appear that PHMSA has
       addressed this issue even though its action plan states that PHMSA “will review
       all special permits to identify those that should be reevaluated because of safety
       concerns and those for which the prior safety justification requires further analysis
       and review.”

     • For 4 of the 22 approvals, PHMSA’s application evaluations similarly lacked
       safety documentation. For example, PHMSA processed an approval that allows
       transport of vehicles installed with prototype lithium ion battery assemblies.
       Normally (without an approval), transportation of these vehicles with such
       batteries would be prohibited because the batteries are still undergoing testing to
       determine their safety. Yet, PHMSA’s evaluation of the approval application did
       not include an assessment of the risks involved during transport or the applicant’s
       ability to provide an equal level of safety.

We also found that PHMSA continued to grant “blanket authorizations” for special
permits and approvals to trade association member companies without verifying their
fitness to carry out the terms and conditions. This is occurring despite PHMSA’s
policy statement of August 14, 2009, in which it stated, “Prior to issuing a special
permit to the members of the association, PHMSA will assess the fitness of the
individual members in accordance with established policies and procedures.”

However, between January 1, 2010, and March 31, 2010, we found that PHMSA
granted:

     • Three special permits to trade associations without any fitness checks of their
       member companies. Instead, PHMSA performed fitness checks on an association,
       which does not transport hazardous materials as specified in the permit. Our
       review of several companies from two of the trade associations found they had
       poor safety histories. For example, 1 member company had 14 incidents
       (4 serious) and 11 violations, all within the last 4 years. 10 This company is
       allowed to operate under a special permit that authorizes transportation of
       ammonia solution containers—a poisonous and flammable material—that does not
       meet certain requirements of the Hazardous Materials Regulations. Also, in the
       permit renewal application, the trade association representative stated there had


10
     For the period November 2001 to April 2008, this member company had a total of 43 violations.


                                                                                                     6
       been more than 35,000 shipments with no incidents. Since this was not the case,
       the situation warrants closer scrutiny from PHMSA.

     • Four approvals to trade associations without any fitness checks of their member
       companies. We checked the fitness of three member companies of one trade
       association and found that one company had four violations and the other two each
       had three violations, all within the last 4 years.

Coordination Still Lacking for Special Permits and Approvals
In its action plans, PHMSA committed to review and enhance procedures for
coordinating the issuance of special permits and approvals with other Operating
Administrations. PHMSA subsequently established mode-specific coordination
requirements within its standard operating procedures. Interagency coordination is
key to safety, as other agencies may have critical safety data on applicants seeking a
permit or approval and share responsibility for hazardous materials transported within
their respective modes (e.g., FAA for transport via aircraft and FMCSA for transport
via highways). However, we found that coordination was still lacking in several
instances. Specifically:

     • For 18 of the 20 special permits we examined, PHMSA did not coordinate with
       Operating Administrations before authorization. 11 One of these was a renewed
       special permit authorizing the holder to transport hazardous materials on bulk
       explosives vehicles. In July 2009, we issued a management advisory to PHMSA
       citing concerns with its ineffective coordination and oversight of these approvals
       in light of the number of serious rollover incidents and violations.

     • For 18 of the 22 approvals we examined, PHMSA did not coordinate with
       Operating Administrations before authorization. One such approval allows the
       holder to ship prototype lithium ion cells and batteries aboard cargo aircraft.
       Contrary to its standard operating procedures, we found no evidence that PHMSA
       coordinated with FAA. Both FAA and the National Transportation Safety Board
       have long-standing safety concerns with the shipment of lithium batteries. In
       addition, representatives from the Air Line Pilots Association state that shipment
       of lithium batteries by air should be strictly prohibited until new regulations are in
       place to ensure the safe transport of hazardous materials. However, this is not
       expected to occur until December 2010.

We recognize that many of the safety procedures are new and that it will take time to
fully and effectively implement them. However, many of the procedures that are
being overlooked—such as determination of applicants’ fitness—can significantly
impact safety. PHMSA recently began enhancing its controls by establishing a

11
     One renewal application did not require coordination with the modal administration.


                                                                                           7
Quality Assurance Team to assess whether personnel are fully and consistently
complying with each step in special permits and approvals process.

EMERGING ISSUES RAISE QUESTIONS ABOUT FUNDAMENTAL
OPERATING PROCEDURES NEEDED TO PROMOTE SAFETY
We have identified a number of emerging issues with safety implications that
reinforce the need for PHMSA to conduct a baseline assessment of its operations.
Earlier this month, we issued a management advisory to PHMSA, identifying
ineffective processes for reviewing and authorizing explosive classification approvals
and overseeing explosives testing labs. 12 PHMSA has taken actions in response to our
advisory but must be more proactive in continually identifying and addressing safety
issues.

Shortcomings in the Process for Reviewing and Authorizing Explosive
Classification Approvals
We identified three shortcomings in the explosive classification approvals process that
raise questions as to whether explosive approvals are based on correct classifications
or appropriately authorized.

First, PHMSA lacks uniform, formalized guidance for classifying and approving
new explosives. 13 PHMSA has not formalized its guidance manual for examining
and classifying explosive hazardous materials, which has led to varying definitions
within PHMSA and industry of what constitutes a “new explosive” and how the
regulations apply. The Hazardous Materials Regulations define a new explosive as
produced by a person who has never produced that explosive or is producing it with
changes to the formulation, design, or process that could alter its properties.
However, the regulations do not specify what would constitute such a change and
when testing would be required, and this can lead to conflicting classification
decisions. 14

For example, one approval we reviewed involved a company that wanted to use an
existing explosives approval to manufacture the same product at another location
without having the relocated product retested. A specialist in PHMSA’s Office of
Special Permits and Approvals (SPA) and a chemist in the Office of Hazardous
Materials Technology (HMT) believed that the company would have to retest the
product because the manufacturing process at the new location could be different and
12
     PHMSA has authorized four testing labs (examining agencies) that provide independent third-party analysis in
     recommending a hazard class (PHMSA has since revoked one lab’s authorization).
13
     In discussion over this issue, PHMSA stated it has published Standard Operating Procedures (SOP) for the Evaluation and
     Issuance of Explosive Classification Approvals. However, unlike the draft guidance manual, the SOP is strictly internal.
     The draft guidance manual was intended to assist manufacturers, shippers (clients), and examining laboratories in
     ensuring that uniform explosive hazard classification procedures, data gathering techniques, and reporting methods are
     employed.
14
     49 C.F.R. § 173.56 (2010).


                                                                                                                           8
may alter the product’s explosive properties. However, according to the HMT
chemist, his supervisor stated the explosive had been previously approved and that the
company’s request should be granted. Had it not been for our review, PHMSA would
have approved the request without having the product retested or examining the
company’s safety record, which indicated a 6-year history of poor explosives safety
compliance. PHMSA has a draft guidance manual published in 2002 (commissioned
by the former Associate Administrator in 1998), which does address this and other
issues for PHMSA employees, testing lab staff, and manufacturers. The draft
guidance states that “An explosive substance developed, produced, and classed by a
specific manufacturer and relocated or co-located to a different manufacturing plant
or facility should be examined and reclassed.” However, the guidance was not
finalized because PHMSA’s former Director for the Office of Hazardous Materials
Technology deemed the Hazardous Materials Regulations to be sufficient guidance.

Second, PHMSA did not adhere to regulatory requirements for reclassifying an
explosive. PHMSA did not follow Hazardous Material Regulations when it approved
a company’s request to reclassify an explosive device to a non-explosive class. 15
Both HMT and SPA offices approved the reclassification without a report from an
authorized testing lab, which is required by regulations, and despite conflicting
chemist conclusions. 16 Specifically, the company requested that its product (a fire
suppression device) be reclassified as a non-explosive, which would allow the product
to be shipped in the same quantity under less stringent packaging requirements on
both passenger and cargo aircraft. The company included data and video on its own
product tests and subsequent written justification in January 2008—but never
submitted any external test reports from PHMSA-authorized testing labs. The HMT
chemist who performed the technical review disapproved the reclassification request
because the company’s video showed that the effects of an explosion were not
completely confined within the device as required by regulations for non-explosive
classifications; this could also impact the safety of packaging and shipping. 17

Despite the chemist’s disapproval and the company’s failure to meet regulatory
requirements, the HMT supervisory chemist overturned the chemist’s
recommendation and forwarded the reclassification request to SPA. SPA did not
question the lack of a required test report and authorized the reclassification and
shipping method by air—without coordinating the approval with FAA. 18 As a result,
15
     PHMSA approved reclassification of the explosive device from explosive class 1.4S (articles, pyrotechnic) to a
     4.1 flammable solid class (non-explosive).
16
     Under 49 C.F.R .173.56(i), PHMSA could reclassify an explosive based on “experience and other data,” but this authority
     was not invoked when the reclassification was granted.
17
     According to the Hazardous Materials Regulations, a substance is not in the explosive class if the effects of the explosion
     are completely confined within the article. This is consistent with UN Recommendations on the Transport of Dangerous
     Goods Model Regulation 15th Revised Edition, which states that explosive articles—except devices containing explosives
     substances—in such a quantity or of such a character that their inadvertent or accidental ignition or initiation during
     transport shall not cause any effect external to the device either by projection, fire, smoke, heat or loud noise.
18
     Although not required, we have previously recommended better coordination with the appropriate Operating
     Administration, and this is an example of why coordination is important for safety reasons.


                                                                                                                              9
the chemist who initially disapproved the reclassification filed a complaint with our
office.

Finally, PHMSA lacks a formal process for effectively resolving internally
contested safety decisions. PHMSA’s internal review of the complaint referenced
above was not conducted independently, and its results were not supportable.
Specifically, PHMSA assigned the Director of HMT (the complainant’s manager) and
the Director of SPA (the person who concurred with the reclassification) to
investigate the complaint. There were no internal controls to prevent a conflict of
interest during the investigation or ensure the complainant remained anonymous as
requested. In response to our findings, PHMSA has stated that it will assign staff not
involved in the complaint for future internal investigations and on April 5, 2010,
issued an order establishing a Safety Review Board to resolve internally contested
safety decisions.

In addition, PHMSA’s internal review of the complaint noted that the company had
submitted a test report, recommending a non-explosive classification, from a
PHMSA-authorized testing lab. However, we found the test report did not exist, and
a lab official confirmed that testing for this product was not performed at their
facility. Company officials who requested the reclassification also stated that rather
than submitting a report from the lab to PHMSA, they had submitted a copy of
another company’s examination report for a different product tested by that lab. The
company officials said they believed that product, which the lab had classified as a
non-explosive, was similar to their fire suppressant device. However, any “similarity”
in the product does not change the fact that a test report from a PHMSA-authorized
testing lab on the actual product is required by the Hazardous Materials Regulations.
In addition, after examining the test report for the product that had been reclassified, a
PHMSA chemist noted it was not even similar to the disputed product. 19 PHMSA did
not acknowledge these issues in its internal review, which further underscores the
need for impartial investigations and a revised approach for conducting them.

PHMSA has agreed to have the devices tested at its own expense by an authorized
testing lab. However, in the interim, the company is still allowed to ship the device
by air as a non-explosive. In light of the potential safety issues, we have advised that
PHMSA should reinstate the device to its original classification of explosive until the
testing lab’s results are published and provide our office with a properly documented
decision on the reclassified explosive.




19
     The tested product was only the main propellant substance, and not the entire device itself (i.e., the main propellant
     substance, confined in a steel case with an electrical igniter and a booster propellant to get it burning hot).


                                                                                                                       10
Ineffective Oversight of Authorized Explosives Testing Labs
Our recent advisory to PHMSA also noted ineffective safety oversight of its four
authorized explosives testing labs. 20 Over the last 10 years, PHMSA has not
conducted fitness inspections or safety reviews at any of these labs. As a result, there
is limited assurance that the labs are operating under safe conditions or meeting the
terms and restrictions of their approval
                                              Example of Testing Lab Approval Criteria
to test explosives (see example).
                                                               Facilities where explosives testing is conducted
                                                                must have a valid Federal Bureau of Alcohol,
To maintain their approval to operate,                          Tobacco, Firearms, and Explosives license at
testing labs must report annually to                            time of testing.
PHMSA on (1) how many explosives  No single revenue source [companies
they tested and approved, (2) what            submitting products for testing] may provide
companies requested testing, and (3)          more than 20 percent of the lab’s gross income
                                              during the reporting period.
whether the lab complied with its
approval criteria.         If PHMSA  Testing         labs must have at least 10 years of
                                              experience in the examination, testing, and
determines—either through safety              evaluation of explosives and must not be
reviews or the annual reports—that a          involved in manufacturing or marketing
                                              explosives.
testing lab is not meeting its approval
criteria, PHMSA has the authority to modify, suspend, or terminate any explosives
approvals issued to companies. However, we found that PHMSA did not question
labs that either violated their approval criteria or failed to submit the required annual
activity reports. For example:

     • Two testing labs are subcontracting their responsibilities to examine and test
       explosives to two companies that are not PHMSA-authorized testing labs, both of
       which manufacture explosives. This presents a conflict of interest that would
       prohibit those companies from directly obtaining a PHMSA approval to operate as
       a testing lab under the Hazardous Materials Regulations.

     • At one testing lab, annual activity reports and certificates of compliance were at
       least 5 years overdue. For three other labs, PHMSA could not confirm whether
       the reports or certificates had actually been submitted. PHMSA is now working
       with the testing labs to collect the required information.

In response to our findings, PHMSA has developed new guidelines to strengthen
oversight of explosives testing labs. These include new processes for how labs review
applications and new renewal requirements for their approvals. PHMSA has also
established a team to inspect testing labs. The team has inspected all four labs over
the last month, and its reviews thus far indicate the need for enhanced oversight. For
20
     To become a PHMSA-authorized testing agency, any organization or person seeking designation must apply in writing to
     the Associate Administrator for Hazardous Materials Safety. The application must include, among other things,
     documentation that supports the applicant’s qualifications, knowledge, and ability to conduct explosives examination and
     testing. Upon receiving PHMSA’s approval, the testing agency must abide by a series of conditions, such as not
     manufacturing or marketing explosives.


                                                                                                                         11
example, the team found that one lab had been sold and was under new ownership;
yet, the new ownership never filed for a new approval. This was the same lab that
had failed to submit annual activity reports for 5 years, and PHMSA has since
revoked the lab’s authorization to examine and test explosives.

CONCLUSION
While the transport of hazardous materials is a vital part of our Nation’s economic
and energy resources, it must be balanced with robust oversight to ensure safety. We
are encouraged by PHMSA’s commitment and prompt efforts to establish safety
improvements in response to our work. However, given our past findings and
emerging issues that appear fundamental to successfully achieving its mission,
PHMSA would benefit from a baseline reassessment of its special permit and
approval standard operating procedures and policies and oversight roles to ensure they
are working as planned. We will continue to monitor PHMSA’s progress as it
continues these important efforts to strengthen the Special Permits and Approvals
program and achieve its mission of safety.

Mr. Chairman, this concludes my statement. I would be happy to address any
questions you or other Members of the Committee may have.




                                                                                   12
      EXHIBIT A. STATUS OF PHMSA’S ACTION PLAN ITEMS FOR
      SPECIAL PERMITS
                Action Item                     Completed   Open                   Notes
1. Rescind or reissue special permits issued                       OIG takes exception. PHMSA still
   to trade associations                                          needs to rescind and reissue to actual
                                                                   member companies.
2. Conduct a broad-based top-to-bottom
   special permit program review                    
3. Evaluations of Safety Documentation              
4. Fitness determinations of Interagency                           OIG takes exception. “Party-to”
   Coordination                                                   special permits are not coordinated
                                                                   with FAA and FRA
5. Develop/Implement inspection
    procedures for determining fitness of           
    applicant
6. Develop Fitness Determination Criteria           
7. Develop Procedures for Renewals                  
8. Develop Standard Operating Procedures
    for Special Permits                             
9. Develop Stakeholder Brochure                     
10. Develop plan to enhance data collection
    to support IT modernization                     
11. Develop IT modernization strategy                             Open. This item involves a 5-year
                                                                   implementation plan
12. Review special permits identified for
    further assessment                                        
13. Incorporation of select special permits
    into the Hazardous Materials Regulations                  
14. Update website                                                Ongoing action item
15. Issue letter of intent to all 83 grantees
    modifying the 4 special permits                 
    authorizing bulk explosive trucks
16. Fitness review of bulk explosive trucks         
17. Documentation review of SP 8554,
    10751, 11579 & 12677                            
18. Risk assessment on bulk explosive               
    trucks
19. Rescind/modify bulk explosive truck
    special permits                                 
20. Stability control                                             Long-term action item
21. Emergency response                                            Long-term action item
                      Total                        15         6




      Exhibit A. Status of PHMSA’s Action Plan Items for Special Permits                      13
     EXHIBIT B. STATUS OF PHMSA’S ACTION PLAN ITEMS FOR
     APPROVALS
               Action Item                   Completed   Open                  Notes
1. Conduct a broad-based top-to-bottom           
   review of Approvals program
2. Rescind or reissue approvals issued to                       OIG takes exception. PHMSA still
   trade associations                                          needs to rescind and reissue to actual
                                                                member companies
3.  Evaluations of Safety Documentation
   to ensure equivalent level of safety          
4. Fitness determinations of Interagency                        OIG takes exception. Explosive
   Coordination                                                classification approval should be
                                                                coordinated with modes—especially
                                                                FAA if explosive is shipped by air
5. Develop/Implement inspection
    procedures for determining fitness of        
    applicant
6. Develop Fitness Determination
    Criteria                                     
7. Develop Standard Operating
    Procedures for Approvals                     
8. Develop policy for publishing
    approvals in Federal Register                
9. Eliminate backlog of approval                               To be completed by May 2010
    processing
10. Review approvals for expiration dates                  
11. Develop plan to enhance data
    collection to support IT modernization       
12. Develop Standard Operating
    Procedures for Certification Agency          
    Approvals (including explosive testing
    labs)
13. PHMSA Safety Review Board                    
14. Develop IT modernization strategy                      
15. Approvals identified for further                            May be a part of Action Item 10, so
    assessment                                                 not counted as “open.”
16. Incorporation of select approvals into
    the Hazardous Materials Regulations                    
17. Update website                                             Ongoing action item
                    Total                       12         5




     Exhibit B. Status of PHMSA’s Action Plan Items for Approvals                          14
